No. 19–______
IN THE

Supreme Court of the United States
________________________

MICHELE BUCKNER, WARDEN,
SOUTH CENTRAL CORRECTIONAL CENTER,
Petitioner,
v.
ROBERT W. ALLEN,
Respondent.

________________________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
VOLUME I
________________________________________
ERIC SCHMITT
Attorney General of Missouri
D. JOHN SAUER
Solicitor General
Counsel of Record
JULIE MARIE BLAKE
Deputy Solicitor General
CAROLINE COULTER
Assistant Attorney General
MIKE SPILLANE
Assistant Attorney General
P. O. Box 899
Jefferson City, MO 65102
(573) 751-8870
John.Sauer@ago.mo.gov
Attorneys for Petitioner

i
TABLE OF CONTENTS
Opinion of the Missouri Court of Appeals granting
habeas relief .............................................................. 1a
Opinion of the Circuit Court of Texas County,
Missouri denying habeas relief ............................. 12a
Order of the Supreme Court of Missouri denying
transfer .................................................................... 17a
Order of the Missouri Court of Appeals denying
rehearing and transfer ........................................... 19a
Mandate of the Missouri Court of Appeals ............ 20a
Motion for transfer filed in the Supreme Court of
Missouri ................................................................... 22a
Motion for rehearing and transfer filed in the
Missouri Court of Appeals ...................................... 33a
Offender’s reply brief in the Missouri Court of
Appeals .................................................................... 44a
Warden’s responsive brief in the Missouri Court of
Appeals .................................................................... 56a
Offender’s brief in the Missouri Court of Appeals
................................................................................. 78a
Warden’s answer in the Missouri Court of Appeals
............................................................................... 102a

ii

Habeas petition in the Missouri Court
of Appeals .............................................................. 116a
Offender’s notice of additional authority
filed in Texas County Circuit Court ..................... 131a
Warden’s suggestions in opposition to
Motion for Judgment on the Pleadings in Texas
County Circuit Court ............................................ 135a
Offender’s Motion for Judgment on
the Pleadings in Texas County Circuit Court ..... 137a
Offender’s reply to response to habeas
Petition in Texas County Circuit Court ............... 144a
Warden’s response to habeas petition in Texas
County Circuit Court ............................................ 150a
Offender’s habeas petition in Texas County Circuit
Court...................................................................... 154a

1a
(SEAL)
Missouri Court of Appeals
Southern District
Division One
In Re ROBERT W. ALLEN )
)
Petitioner,
)
)
v.
) No. SD35655
)
JEFF NORMAN, Warden, ) Filed: Nov. 27, 2018
South Central Correctional )
Center,
)
Respondent.
)
ORIGINAL PROCEEDINGS IN HABEAS
CORPUS
HABEAS RELIEF GRANTED
This is an original proceeding in habeas corpus.
Robert W. Allen (“Petitioner”) was sentenced to life
without eligibility for parole for fifty years (“LWOP
50”) for a capital murder he committed in January
1984 as a sixteen-year-old. See sections 565.001 and
565.008.1.1 Petitioner also received two terms of life
imprisonment for first-degree murder (felony
murder) and armed criminal action for other offenses
he committed in the same course of events.
________________________
1

All statutory references are to RSMo 1978.

2a
See sections 565.003, 565.008.2, and 571.015.1. All
three sentences were run consecutively.2
Petitioner seeks habeas relief only regarding his
LWOP 50 sentence on the basis that it violates the
Eighth Amendment in light of Miller v. Alabama,
567 U.S. 460 (2012), and State ex rel. Carr v.
Wallace, 527 S.W.3d 55 (Mo. banc 2017).3 Petitioner
maintains that his sentence for capital murder
should be overturned and the case remanded for a
resentencing hearing on that count pursuant to the
procedure prescribed in Carr and State v. Hart, 404
S.W.3d 232 (Mo. banc 2013). The state maintains
that “[i]t does not matter whether one part of the
sentence would be impermissible standing alone.
Instead, the aggregate sentence is analyzed under
the framework in Willibanks [v. Department of
Corrections, 522 S.W.3d 238 (Mo. banc 2017)].”
Factual Background and Procedural History
At the time of Petitioner’s offenses, capital
murder was punishable only by death or a LWOP 50
sentence. See section 565.008.1. “Although the
[S]tate requested the death penalty, the jury could
not agree upon punishment, and the trial court did
________________________

Petitioner’s sentence was affirmed in State v. Allen, 710 S.W.
2d 912, 917 (Mo. App. W.D. 1986). That opinion describes “[t]he
brutal facts of these murders [.]” Id. At 914.
3 Petitioner asserts that should he be found guilty of seconddegree murder instead of capital murder following the
proceedings outlined later in this opinion, his conviction for
armed criminal action must also be corrected as it is predicated
on the capital murder conviction. We do not decide that issue
here. The record before us does not establish that capital
murder was the predicate offense for the armed criminal action
offense.
2

3a
not impose the death penalty.” Allen, 710 S.W.2d at
916. The State points out that Petitioner’s additional
life sentence for first degree felony murder had no
mandatory minimum sentence to be served for
purposes of parole eligibility, and the armed criminal
action sentence had a three-year mandatory
minimum before parole eligibility was established.
Petitioner is incarcerated at the South Central
Correctional Center. His first attempt to obtain
habeas relief on the same grounds asserted in the
instant petition was denied by the circuit court. The
circuit court noted that petitioner’s sentences were
consecutive, thereby concluding that “the sentencer
found after considering all relevant factors that the
mandatory minimum for capital punishment of no
parole for fifty years was not enough punishment.
The sentencer thus satisfied the duty noted in
[Willibanks] to ‘impose a sentence on a case-by-case
basis.’ [522 S.W. 3d 243].” We disagree.
Analysis
1. The LWOP 50 Sentence
“A prisoner is entitled to habeas corpus relief
where he proves that he is ‘restrained of
his…liberty in violation of the constitution or
laws of the state or federal government.’” Carr,
527 S.W.3d at 59 (quoting State ex rel. Clemons v.
Larkins 475 S.W.3d 60, 76 (Mo. banc 2015)). “To
withstand the Eighth Amendment’s prohibition of
cruel and unusual punishment, the punishment
for a crime must be proportional to both the
offender and the offense.”

4a
Id. In Carr, our high court reasoned that
“[s]entencers should be given the opportunity to
consider the mitigating qualities of a defendant’s
youth.” Id. at 60. Indeed, “‘criminal procedure laws
that fail to take defendants’ youthfulness into
account at all [are] flawed.’” Id. quoting Miller, 567
U.S. at 473-74.
In Carr, the juvenile defendant was found guilty
of three counts of capital murder, but he was
sentenced to three concurrent sentences of LWOP 50
after the State chose not to seek the death penalty.
Id. at 58. “Like Miller, the mandatory statutory
sentencing scheme in place at the time of Mr. Carr’s
conviction denied the sentencer the opportunity to
consider the attendant characteristics of Mr. Carr’s
youth before imposing the severe punishment of a
life sentence without the possibility of parole for 50
years.” Id. at 61. The Court found that “[b]ecause
Mr. Carr’s sentence was imposed without any
consideration of his youth, his sentence violates the
Eighth
Amendment[,]”
and
he
“must
be
resentenced.” Id. at 63.
The State responds – without citation to
supporting authority – that “the analysis is different
[than that presented in Carr] when, as here, a court
has chosen to impose consecutive, additional
sentences for each crime. In that circumstance, no
individual sentence is analyzed on its own for
whether it would be impermissible.”

5a
Based on that assertion, the State maintains that
“Willbanks controls this case, not Carr or
Nathan.”4
The sentences at issue in Willbanks did not
involve capital murder. See 522 S.W.3d at 239-40.
________________________

The last case mentioned is presumably a reference to State v.
Nathan, 404 S.W.3d 253, 256 and 271 n.12 (Mo. banc 2013) (a
sentence of life without parole for first-degree murder
committed while the offender was a juvenile was reversed as
violating the Eighth Amendment) (“Nathan I”). The State
argues that Nathan I “has been superseded[,]” citing State v.
Nathan, 522 S.W.3d 881, 892 (Mo. banc 2017) (“Nathan II”),
in addition to its arguments regarding Willbanks. In Nathan
I, the defendant argued “that he also should be re-sentenced on
the remaining 21 non-homicide counts on which he was found
guilty and sentenced below. Nathan did not appeal those
convictions, however.” 404 S.W.3d at 271 n.12. The Court noted
that “[t]o the extent that Nathan was attempting to assert a
claim based on the combined effect of the non-homicide
sentences and his sentence for the murder charge, such a claim
is premature until after the re-sentencing procedure described
above, and will be moot if Nathan is sentenced to life without
parole.” Id. Such a claim was advanced in Nathan II and
characterized as a “Graham Claim[,]” 522 S.W.3d at 885, after
Nathan was resentenced for second-degree murder instead of
first-degree murder and sentenced to life imprisonment while
he was also subject to multiple other consecutive sentences. Id.
at 884-85. Our high court found: “Unlike in Graham, Nathan
was found guilty of second-degree murder along with multiple
nonhomicide offenses. Therefore, Nathan’s claim under
Graham is denied.” Id. at 888 (footnote omitted). It concluded,
“[f]or this Court to hold Graham and Miller apply to
consecutive sentences amounting to the functional equivalent of
life in prison without the possibility of parole, it would
undoubtedly need to extend both holdings to uncharted waters.”
Id. at 893. Again, none of this alters the precedent set forth in
Carr concerning the LWOP 50 sentence that Petitioner
challenges here.
4

6a
Willbanks was 17 years old when he was charged
with kidnapping, first-degree assault, two counts
of first-degree robbery, and three counts of armed
criminal action. He was convicted and sentenced
to consecutive prison terms of 15 years for the
kidnapping count, life for the assault count, 20
years for each of the two robbery counts, and 100
years for each of the three armed criminal action
counts.
Id. at 239. Willbanks asserted that “his sentences, in
the aggregate, will result in the functional
equivalent of a life without parole sentence.” Id. at
239. He went on to point out that “[t]he Supreme
Court held [in Graham v. Florida, 560 U.S. 48, 82
(2010),] that the Eighth Amendment prohibits
juvenile nonhomicide offenders from being sentenced
to life without parole.” 522 S.W.3d at 242.
In rejecting Willbanks’s argument, our high court
pointed out that he “was not sentenced to life
without parole.” Id. “The Supreme Court has never
held that consecutive lengthy sentences for multiple
crimes in excess of a juvenile’s life expectancy is the
functional equivalent of life without parole.” Id. at
246. Further, “absent guidance from the Supreme
Court, [the Supreme Court of Missouri] should not
arbitrarily pick the point at which multiple
aggregated sentences may become the functional
equivalent of life without parole.” Id. at 245.
Willbanks was then distinguished in Carr, our
high court noting that “[a]though this case involves
multiple offenses, Mr. Carr’s three sentences of life
without the possibility of parole for 50 years were all
run concurrently. This case does not present the

7a
same stacking or functional equivalent sentences
issue presented in Willbanks[.]” 527 S.W.3d at 61
n.7. Nonetheless, the State insists that the addition
of the other sentences is what removes Petitioner’s
case from analysis under Carr.5
As in Willbanks, 522 S.W.3d at 239, Petitioner
received consecutive sentences. We believe that the
critical difference, however, is that no single
sentence imposed in Willbanks offended the Eighth
Amendment. Here, Petitioner is not challenging his
sentences for first degree murder and armed
criminal action, nor the fact that his sentences were
imposed consecutively. Instead, Petitioner contends
that “if one part of a sentence is impermissible, the
defendant is entitled to be resentenced as to the
unconstitutional part of the sentence even if there
are other sentences running consecutively to it.”
Here, unlike Willbanks, no sentences need to be
stacked with any others to reach a “functional”
sentence of life in prison for at least fifty years before
parole eligibility is reached. Petitioner has an actual
LWOP 50 sentence that is separate and distinct from
any of his additional sentences.
____________________

The State also argues that review of Petitioner’s sentence may
advance no further than “the framework in [Graham]” and
then must fail because Petitioner shows no national consensus
against the type of sentence he received and no insufficiency in
terms of the sentence’s penological goals. This argument
ignores that the Supreme Court was considering a new type of
categorical challenge in Graham as it worked through the
analyses of a national consensus and penological goals. 560 U.S.
at 61, 62, and 67. After doing so, it concluded that “[t]he
Constitution prohibits the imposition of a life without parole
sentence on a juvenile offender who did not commit homicide.”
Id. at 82.
5

8a
While it may well be that the trial court
determined the brutal nature of Petitioner’s offenses
warranted consecutive sentences, the LWOP 50
sentence was mandatory after the death penalty was
rejected. See section 565.008.1 and Allen, 710
S.W.2d at 914. There was no room for consideration
of second-degree murder as an alternative in
considering “whether [Petitioner’s sentence] of life
without the possibility of parole for 50 years [was]
just and appropriate considering his youth, maturity,
and the other Miller factors.” Carr, 527 S.W.3d at
62. It was the mandatory aspect of Mr. Carr’s LWOP
50 sentences that made them unconstitutional under
Miller:
[T]he most severe mandatory penalty was
imposed on Mr. Carr in direct contravention of
the foundational principle “that imposition of a
State’s most severe penalties on juvenile
offenders cannot proceed as though they were not
children.” [Miller] at 2466. Consequently, Mr.
Carr’s sentences violate the Eighth Amendment
because they were “imposed without any
opportunity for the sentencer to consider whether
th[e] punishment[s were] just and appropriate in
light of [Mr. Carr’s] age, maturity, and other
factors discussed in Miller.” State v. Hart, 404
S.W.3d 232, 238 (Mo. banc 2013).
Carr, 527 S.W.3d at 61-62 (footnote omitted). Thus,
Carr is applicable and binding on this court, and it
entitles Petitioner to the habeas relief he seeks.
2. The Applicable Resentencing Procedure

9a
The Court in Carr applied the procedures
outlined in Hart in stating the proper resentencing
procedure:
First, the sentencer must consider whether Mr.
Carr’s sentences of life without the possibility of
parole for 50 years are just and appropriate
considering his youth, maturity, and the other
Miller factors. [Hart, 404 S.W.3d at 241]. If Mr.
Carr elects to have a jury resentence him, the
jury must be “instructed properly that it may not
assess and declare” his punishment for capital
murder should be life without the possibility of
parole for 50 years “unless it is persuaded beyond
a reasonable doubt that this sentence is just and
appropriate under all the circumstances.” Id.
(internal quotation omitted). The jury must also
be instructed, “before it begins its deliberations,
that if it is not persuaded that life without parole
[for 50 years] is a just and appropriate sentence
under all the circumstances of the case,
additional instructions concerning applicable
punishments will be given at that time.” Id. at
242.
If, after considering all the circumstances, the
sentencer finds Mr. Carr qualifies for life without
the possibility of parole for 50 years, then that is
the only authorized statutory sentence. Id. If,
however, the sentencer is not persuaded that this
sentence is just and appropriate, Mr. Carr cannot
receive that sentence. Instead, the trial court
must declare section 565.008 void as applied to
Mr. Carr on the ground that it does not provide a
constitutionally valid punishment for his offense.
Id.

10a
If section 565.008 is void, the trial court must
vacate the jury’s verdict finding Mr. Carr guilty of
capital murder under section 565.001 and enter a
new finding that he is guilty of murder in the
second degree under section 565.004. Id. After the
sentencer enters the finding that he is guilty of
murder in the second degree, the sentencer must
determine his sentence based on the statutory
range applicable to these offenses. Id. at 243.
Under section 565.008.2, “[p]ersons convicted of
murder in the second degree shall be punished by
imprisonment by the division of corrections for a
term of not less than ten years.” If Mr. Carr elects
to have a jury resentence him, the jury will be
provided with additional instructions regarding
sentencing for murder in the second degree. Id.
As this Court instructed in Hart, these additional
instructions “should not be submitted to the
sentencer—unless and until the sentencer has
deliberated and rejected sentencing [the juvenile
offender] to [life without the possibility of parole
for 50 years] for [capital murder].” Id. Mr. Carr
would then be resentenced for second degree
murder within the statutorily authorized range of
punishments for that offense. Id.
527 S.W.3d at 62 (footnote omitted).
Habeas relief is granted. Petitioner’s LWOP 50
sentence for capital murder is vacated, and the case
is remanded for resentencing on that count
consistent with the procedure outlined in Carr. See
527 S.W.3d at 62.

11a
DON E. BURRELL, P.J. – OPINION AUTHOR
NANCY STEFFEN RAHMEYER, J. – CONCURS
GARY W. LYNCH, J. – CONCURS

12a
IN THE CIRCUIT COURT OF TEXAS COUNTY,
MISSOURI
In Re: Robert W. Allen
Petitioner,

)
)
)
vs.
) Case No.
) 17TE-CC00425
)
JEFF NORMAN, Warden, )
South Central Correctional )
Center,
)
Respondent.
)
ORDER DENYING WRIT OF HABEAS CORPUS
Petitioner was charged with, and convicted of, one
count of capital murder, § 565.001 RSMo 1978
(victim, Rachel Hudnall), one count of murder in the
first degree, § 565.050 RSMo 1978 (victim Maurice
Hudnall), and one count of armed criminal action, §
571.015 RSMo 1978, in Jackson County, Missouri.
The offenses occurred on January 12, 1984, when
petitioner was sixteen years old (DOB: 8/7/1967).
On April 18, 1985, Petitioner was sentenced to a
mandatory term of life imprisonment without
probation or parole for fifty years for the capital
murder charge, and sentences of life imprisonment
for the other two counts with the sentences ordered
to run consecutively to each other in Jackson County,
Missouri. Thereafter, Petitioner filed a direct appeal,
which affirmed on appeal in State v. Allen, 710
S.W.2d 912 (1986).

13a
Petitioner asserts that Missouri’s then effective
capital murder statute made no exception for
juvenile offenders, and that therefore Petitioner’s
mandatory sentence of life without parole for fifty
years for that offense is invalid and unconstitutional
in violation of the Eighth Amendment in light of
Miller v. Alabama, 567 U.S. 460 (2012), as well as
the decision by the Missouri Supreme Court in State
ex rel. Carr v. Wallace, 527 S.W. 3d 55 (Mo. banc
2017).
The United States Supreme Court in Miller
prohibited a sentence of life imprisonment without
the possibility of parole for juvenile offenders
convicted of homicide. Miller, 132 S.Ct. at 2464. In
Carr, a juvenile was convicted of three counts of
capital murder and was sentenced under each count
to the required minimum under the effective penal
statute, life imprisonment without parole for fifty
years. The trial court ordered that the three
sentences run concurrently. The Missouri Supreme
Court held the sentences violated Miller, as the
mandatory sentences were imposed without any
opportunity for the sentencer to consider whether the
punishments were just and appropriate in light of
the juvenile’s age, maturity and other Miller factors.
Carr, 527 S.W. 3d at 61-62. However, Carr cautioned
in footnote 7 of the opinion:
Although this case involves multiple offenses,
Mr. Carr’s three sentences of life without the
possibility of parole for 50 years were all run
concurrently. This case does not present the same
stacking or functional equivalent sentences issue
presented in Willbanks v. Missouri Department of

14a
Corrections, 522 S.W. 3d 238, (Mo. banc July 11,
2017)…
In Willbanks, the defendant was convicted of and
sentenced to consecutive prison terms of fifteen years
for kidnapping, life for assault, twenty years for each
of two robbery counts, and one hundred years for
each of three armed criminal action counts. On
appeal he claimed that under current Missouri
parole statutes and regulations, he did does not
become parole eligible approximately age eighty-five
years, thus constituting the functional equivalent of
life without parole in violation of Miller. Willibanks,
522 S.W. 3d at 239-241. The Missouri Supreme
Court held that the consecutive sentences were
permissible, stating:
Over the last decade, the Supreme Court has
stated that youth affects the penological
considerations
for
the
following:
capital
punishment; mandatory life without parole for
homicide offenders; and life without parole for
nonhomicide offenders. But the Supreme Court
has not held that multiple fixed-term sentences
totaling beyond a juvenile offender’s life
expectancy are the functional equivalent of life
without parole. Warning of “frequent and
disruptive reassessments of [the Supreme
Court’s] Eighth Amendment precedents,” the
Supreme Court has not looked positively upon
lower courts issuing various rulings without
precedence from the Supreme Court. Clear,
predictable, and uniform constitutional standards
are especially desirable in the area of the Eighth
Amendment. Extending the Supreme Court’s

15a
holdings beyond the four corners of its opinions is
clearly disfavored.
The Supreme Court has never held that
consecutive lengthy sentences for multiple crimes
in excess of a juvenile’s life expectancy is the
functional equivalent of life without parole.
…Without direction from the Supreme Court to
the contrary, this Court should continue to
enforce its current mandatory minimum parole
statutes and regulations by declining to extend
Graham.
Id at 246 (internal citations and quotations marks
omitted).
The Court in Willbanks also emphasized the
nature of the consecutive sentences pronounced in
that case:
The sentencer in a case (here, the trial court)
has a duty to impose a sentence on a case-by-case
basis. Additionally, trial courts have very broad
discretion in their sentencing function, as
evidenced in section 558.026.1, which provides
that multiple prison terms shall run concurrently
unless the court specifies that they shall run
consecutively. Neither this Court nor the
Supreme Court has ruled on the constitutional
impact of consecutive sentences.
Id at 243 (internal citation and quotation marks
omitted).

16a
In the instant case, it appears that the caution set
forth in Willbanks not to extend the Supreme Court’s
holdings beyond the four corners of its opinions
dictates the denial of the writ of habeas corpus. The
Missouri Supreme Court, noting that the United
States Supreme Court has never ruled on the
constitutionality of consecutive sentences, upheld
consecutive sentences with no possibility of parole
until age eighty-five years.
Though Carr prohibited the imposition of three
sentences of life without parole of at least fifty years,
the sentencer in that case had elected to run the
sentences concurrent, reflecting a decision by the
sentencer to reduce the sentences to the minimum
allowed by law. The sentencer was unable to further
reduce the sentences with regard to the mitigating
factors of youth because of the mandatory minimum
required by the sentencing statute. In contrast, in
the instant case, the sentencer pronounced that the
three sentences of life without parole for fifty years,
life with no mandatory minimum, and life with a
three year mandatory minimum, shall run
consecutive with one another. By necessity, then, the
sentencer found after considering all relevant factors
that the mandatory minimum for capital punishment
of no parole for fifty years was not enough
punishment. The sentencer thus satisfied the duty
noted in Willbank to “impose a sentence on a case-bycase basis.” Id
Petitioner’s Petition for Writ of Habeas Corpus is
denied.
Date: August 13, 2018

/s/ William E. Hickle,
William E. Hickle, Judge

17a
Supreme Court of Missouri
en banc
SC97610
SD35655
January Session, 2019
In Re Robert W. Allen,
Petitioner,
vs. (TRANSFER)
Jeff Norman, Warden, South
Center Correctional Center,
Respondent,
Now at this day, on consideration of the
Respondent’s application to transfer the aboveentitled cause from the Missouri Court of Appeals,
Southern District, it is ordered that the said
application be, and the same is hereby denied.
STATE OF MISSOURI-Sct.
I, Betsy AuBuchon, Clerk of the Supreme Court of
the State of Missouri, certify that the foregoing is a
full, true and complete transcript of the judgment of
said Supreme Court, entered of record at the
January Session, 2019, and on the 5th day of March,
2019, in the above entitled cause.
(SEAL)

IN TESTIMONY WHEREOF, I have
hereunto set my hand and the seal of
said Court, at my office in the City of
Jefferson, this 5th day of March,
2019.

18a
/s/Betsy AuBuchon, Clerk
/s/Christina Susan, Deputy Clerk

19a
Missouri Court of Appeals
Southern District
No. SD35655
IN RE: ROBERT W. ALLEN, )
)
Petitioner,
) FILED
) DEC 14 2018
vs.
) CRAIG A. STREET
) CLERK, MISSOURI
JEFF NORMAN, WARDEN, ) COURT OF
SOUTH CENTRAL
) APPEALS
CORRECTIONAL CENTER, ) SOUTHERN
Respondent.
) DISTRICT
ORDER
Now on this day, the Court overrules and denies
respondent’s “Motion for Rehearing and Application
for Transfer.”
cc:

Attorneys of Record

20a
Missouri Court of Appeals
Southern District
No. SD35655
(Texas County Case No. 17TE-CC00425)
(Jackson County Case No. CR-84-1010)
In re: ROBERT W. ALLEN )
)
Petitioner,
) FILED
) MAR 07 2019
v.
) CRAIG A. STREET
) MISSOURI COURT
JEFF NORMAN, Warden, ) OF APPEALS
South Central Correctional ) SOUTHERN
Center,
) DISTRICT
Respondent.
)
MANDATE
ORIGINAL PROCEEDING ON PETITION FOR
WRIT OF HABEAS CORPUS
The Court, being sufficiently advised of and
concerning the premises, does consider and adjudge
that Petitioner is granted habeas relief in conformity
with the opinion of the Court herein delivered. The
Court further order that Petitioner be remanded and
delivered to the Jackson County Department of
Corrections, in the state of Missouri, to be confined
pending the further order and action of the Circuit
Court of Jackson County in case number CR84-1010.
Opinion filed.

21a
(SEAL)

IN TESTIMONRY WHEREOF, I have
hereunto set my hand and affixed the seal
of the Missouri Court of Appeals, Southern
District, at my office in the City of
Springfield on this day, March 7, 2019.
/s/CRAIG A. STREET
CRAIG A. STREET, Clerk

22a
IN THE SUPREME COURT OF MISSOURI
ROBERT ALLEN,
Petitioner,
v.
JEFFREY NORMAN,
Respondent.

)
)
)
)
)
)
)

No. SC

APPLICATION FOR TRANSFER
This case raises the important question of
whether the Eighth Amendment to the U.S.
Constitution entitles a juvenile offender who
committed three crimes—capital murder, first-degree
murder, and armed criminal action—and who
received three consecutive sentences—of life
imprisonment, life imprisonment, and life without
parole for fifty years—to early parole eligibility. The
appeals court held that sentencing any juvenile
offender to life without parole for fifty years is cruel
and unusual punishment—no matter the total
crimes committed or sentences received.
EXISTING LAW THAT REQUIRES
REEXAMINATION
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo.
2017)
CONTRARY APPELLATE DECISIONS

23a
Willbanks v. Missouri Department of Corrections, 522
S.W.3d 238 (Mo. 2017).
Virginia v. Leblanc, 137 S. Ct. 1726 (2017).
State v. Hart, 404 S.W.3d 232 (Mo. 2013).
Miller v. Alabama, 567 U.S. 460 (2012).
I. Statement of Facts
Robert W. Allen brutally robbed and murdered an
elderly couple for petty case. State v. Allen, 710 S.W.
2d 912, 913 (Mo. App. W.D. 1986). When Allen was
sixteen, he and an accomplice decided to rob an
elderly couple because the couple’s social security
checks had arrived in the mail. Id. at 914. The pair
cut the telephone wires to the victims’ house, went to
the door and told the female victim that their car had
slid off the road. Id. Next they forced their way in
and searched the home for things to steal. Id. Allen
clubbed the female victim three times with a night
stick and his accomplice clubbed the male victim
twice in the head with a knife butt. Id. They then
tied the victims up, laid the victims on their
stomachs, and killed them by stabbing them in the
back of the neck. Id. Allen and his accomplice then
stole $140 each. Id.
A jury convicted Allen of capital murder, firstdegree murder, and armed criminal action. But the
jury was divided on the death penalty’s propriety.
And so, to make the punishments fit the crimes, the
trial court sentenced Allen to three consecutive
terms in prison, one for each crime—two terms of life

24a
imprisonment, and life imprisonment without the
possibility of parole for fifty-years. Id. at 913, 916.
Decades later, Allen petitioned for habeas corpus
in the Circuit Court of Texas County, Missouri from
his residence at the South Central Correctional
Center in Licking, Missouri. He alleged that his
mandatory life without parole for fifty-years sentence
violates the Eighth Amendment because he was
under eighteen when he murdered his victims.
Appendix at A3-A4.
The Circuit Court of Texas county denied his
petition, holding that this Court’s decision in
Willbanks v. Missouri Department of Corrections, 522
S.W.3d 238 (Mo. 2017), foreclosed his claims.
Appendix A3-A6. This Court had held in Willbanks
that the Supreme Court has never expanded the
Eighth Amendment this far, and it made clear that it
is not cruel and unusual punishment to sentence a
juvenile offender who committed multiple crimes to
multiple consecutive sentences, even if the offender’s
aggregate sentence is the functional equivalent of life
without parole. Id. at A5-A6. The circuit court also
explained that this Court’s decision in State ex rel.
Carr, 527 S.W.3d 55 (Mo. 2017), did not concern
sentences like Allen’s sentences. Carr involved a
single minimum sentence for a single crime,
suggesting that an even lighter sentence might be
appropriate punishment if the trial court has had
discretion. But for Allen, the sentencing judge found
life without the possibility of parole for fifty years too
light a punishment. And so it imposed two
consecutive life sentences as well. Appendix A6.

25a
Allen then petitioned for writ of habeas corpus in
the Missouri Court of Appeals Southern District. In
re Allen v. Norman, slip op. S.D. 35655 (Mo. App.
S.D. Nov. 27, 2018). That court granted him a writ of
habeas corpus, holding that denying a juvenile
offender parole for fifty years is unconstitutional, no
matter the number of severity of crimes. Id. at *3-6.
The court extended Carr to Allen’s sentence because
Allen like Carr received a sentence of life without the
possibility of parole for fifty years, even though Carr
did not concern consecutive sentences, and Allen
received two other consecutive life sentences. Id.
Because it disregarded Allen’s other consecutive
life sentences, the appellate court ordered
resentencing on only his sentence of life without
parole for fifty-years. Id. The court thus disregarded
this Court’s decision in Willbanks, in which this
Court upheld consecutive sentences for a juvenile
offender even if it resulted in no parole eligibility
during a normal lifetime. The appellate court found
Willbanks distinguishable because Willbanks did not
receive a single sentence of life without the
possibility of parole for fifty years within his total
aggregate sentence of 355 years. Id.
II. Basis for Transfer
The case raises the important question of whether
a sentence of life without the possibility parole for
fifty years is cruel and unusual punishment when a
juvenile offender committed multiple crimes and
received multiple consecutive life sentences. Going
beyond this Court’s decisions in Willbanks, Nathan,
and Carr, the appellate court expanded the Eighth
Amendment and the U.S. Supreme Court’s

26a
precedents to—with no basis in the Constitution—
require the State to give a heinous murderer early
parole eligibility.
A. The panel decision conflicts with
Willbanks, Nathan, and United States
Supreme Court precedent.
Under the U.S. Supreme Court’s precedents, as
well as this Court’s decision in Willbanks and
Nathan, this Eighth Amendment has never
prohibited multiple consecutive sentences for
multiple crimes. And this Court has held that it is
not cruel and unusual punishment to impose
multiple consecutive sentences for a juvenile offender
even if the sentences last hundreds of years.
Willbanks v. Missouri Department of Corrections, 522
S.W.3d 238 (Mo. 2017). In Willbanks, this Court
drew a bright line: no United States Supreme Court
precedent prohibits multiple consecutive sentences
for multiple crimes for juvenile offenders, even if that
pushes parole eligibility beyond a human life
expectancy. Id. at 246. And, in a companion case,
Nathan, this Court held that neither is sentencing a
juvenile to consecutive, long sentences for multiple
non-homicide and homicide offenses the functional
equivalent of life without possibility of parole. State
v. Nathan, 522 S.W.3d 881, 892 (Mo. banc 2017).
That said, this Court ordered resentencing in a
case that did not involve consecutive punishments
for multiple crimes. In Carr, a juvenile offender who
committed three murders received three concurrent
life sentences with parole ineligibility for fifty years.
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo.
2017). Unlike in Willbanks, where the sentences

27a
were consecutive, this Court held that this minimum
sentence was unconstitutional because the sentences
were concurrent and functionally amounted to a
single mandatory sentence of life without parole. Id.
at 61 n.7.
And so, setting aside for the moment whether
Carr was rightly decided, Carr on its own terms does
not apply here. Instead, Allen’s case falls under the
framework for analyzing consecutive sentences in
Willbanks and Nathan. Allen’s sentencing court went
beyond a mandatory minimum sentence for a single
crime: it found inadequate a single life sentence with
parole ineligibility for fifty years when Allen
committed three crimes—and so it imposed two
consecutive life sentences as well. In Carr, the
sentencing court imposed the legal mandatoryminimum sentence, unlike Allen’s consecutive
sentence structure.
Allen seeks a rule that no juvenile may be
ineligible for parole for more than fifty years, no
matter how many other crimes he committed or goes
on to commit. The sole reason that the panel gave for
distinguishing these precedents is that Allen
received a life without parole eligibility for fifty
years’ sentence. But under Miller, Willbanks, and
Nathan there is no requirement of universal parole
eligibility at fifty years, as some sort of magic
number, let alone this kind of entitlement when the
offender committed multiple crimes.
And his life without parole for fifty-years’
sentence cannot be looked at alone. Allen’s sentence
is not a singular term for a singular crime. His real

28a
sentence is consecutive terms for consecutive crimes,
which Willbanks and Nathan allow.
This Court’s Eighth Amendment precedent
requiring resentencing for long juvenile sentences
goes no further than Willbanks and Nathan. A
juvenile is entitled to some parole eligibility only
when he is sentenced to imprisonment for life
without parole for a non-homicide offense, or when
he receives a single mandatory sentence of life
without parole for murder. The Eighth Amendment
does not give early parole eligibility to a person
guilty of murder, along with multiple other offenses,
who justly received multiple consecutive sentences.
Nathan, 522 S.W.3d at 888. “Nothing in Miller or
Graham takes away a sentencer’s (the circuit court
in this case) authority to run sentences consecutively
for a homicide offense along with multiple nonhomicide offenses.” Nathan, 522 S.W.3d at 892-93.
And “the Supreme Court has not held that multiple
fixed-term sentences totaling beyond a juvenile
offender’s life expectancy are the functional
equivalent of life without parole.” Willbanks, 522
S.W.3d at 246. The U.S. Supreme Court “did not
address the constitutional validity of consecutive
sentences, let alone the cumulative effect of such
sentences.” Id. at 891.
The decision below thus goes beyond Carr to
conflict with Willbanks, Nathan, and State v. Hart,
404 S.W.3d 232 (Mo. 2013). But the state courts are
not free to go beyond what the Supreme Court has
held. Missouri’s justice system “recognizes multiple
violent crimes deserve multiple punishments.” Id. at
92. This court therefore, should not allow the Court

29a
of Appeals to expand Carr and overrule Willbanks
and Nathan from below.
B. This Court should reexamine and
overrule State ex rel. Carr v Wallace
because it conflicts with Willbanks,
Nathan, Miller, Leblanc, and Hart.
But even if Carr could be extended to Allen’s
sentence, which it should not be, then this Court
should transfer this case to overrule Carr.
The United States Supreme Court in Miller held
that a single mandatory life without parole sentence
for an offender who committed his crime while under
age eighteen violates the constitution. Miller v.
Alabama, 567 U.S. 460 (2012). It did not hold that a
term of years is the functional equivalent of a life
sentence. And it did not hold that juveniles get
parole eligibility even if they committed multiple
crimes and received multiple consecutive sentences.
This Court reads the ban in Miller as applying to a
mandatory life without parole sentence: nothing
more, nothing less. State v. Hart, 404 S.W.3d 232
(MO. 2013).
Later, in Leblanc, a habeas corpus case, the Court
confirmed this plain import of Miller. It held that it
was not contrary to nor an unreasonable application
of Miller to hold that Miller allows geriatric parole
eligibility rather than earlier release for a single
homicide offense. Virginia v. Leblanc, 137 S. Ct. 1726
(2017). Leblanc tracks Missouri Supreme Court
precedent because it confirms that U.S. Supreme
Court precedent does not require more than Miller.
Willbanks, 522 S.W.3d at 246.

30a

But in Carr, this Court allowed an aberration to
enter its jurisprudence. It expanded the holding in
Miller from prohibiting a mandatory sentence of life
with no parole to prohibit to prohibit a mandatory
sentence of imprisonment with parole eligibility after
fifty years. Carr, 527 S.W.3d at 61. The dissent in
Carr pointed out that the majority in Carr extended
Miller beyond its text, and thus the decision raised
doubts about whether a juvenile offender could
receive any lengthy term-of-years sentence. Id. 63-64
(Fisher, C.J., dissenting).
Carr was wrong when it was decided and it is
wrong today. This opinion has no basis under the
original public meaning of the Eighth Amendment or
the U.S. Supreme Court’s limited reading of the
Eighth Amendment. The Eighth Amendment does
not entitle juveniles to parole eligibility at fifty years
in any circumstances. It should be overruled.
The decision below, though, is worse than Carr.
Allen persuaded the appellate court to expand Miller
even beyond Carr. Carr prohibited a (functionallysingle) mandatory sentence of life in prison with
parole eligbility after fifty years, considering life
without parole for fifty years to be the functional
equivalent of a mandatory sentence of life without
parole for a single crime. Yet the panel opinion reads
Miller to ban any sentence without parole for fiftyyears even if the offender also received two
consecutive life sentences and committed for multiple
offences, and even if the court considered the
offender’s youth and held that the punishments
fitted his crimes.

31a
The panel’s expansion of Miller thus underscores
the need for a reexamination of Carr. State courts,
especially lower state courts, should not take it on
themselves to extend United States Supreme Court
precedent and strike down sentences imposed under
state law. Id. But this decision takes exactly that
forbidden step.
CONCLUSION
This Court should transfer the case to the
Supreme Court of Missouri.
Respectfully submitted,
Joshua D. Hawley
Attorney General
Julie Marie Blake
Deputy Solicitor General
Mo. Bar No. 69643
/s/ Michael J. Spillane
Michael J. Spillane
Mo. Bar No. 40704
Assistant Attorney General
P.O. Box 899
Jefferson City, MO 65102-0899
(573) 751-1307
(573) 751-3825 (Facsimile)
Mike.Spillane@ago.mo.gov
Attorneys for Appellant

32a
CERTIFICATE OF COMPLIANCE
I hereby certify that a copy of this application for
transfer and all attachment was e-filed via
CASE.NET and a copy of this application for transfer
and all attachments was mailed via US postage this
26th day of December, 2018 to:
Craig A. Johnson
Assistant State Public Defender
Woodrail Centre
Building 7, Suite 100
1000 West Nifong
Columbia, MO 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Craig.johnson@mspd.mo.gov
/s/ Michael J. Spillane
Assistant Attorney General

33a
IN THE MISSOURI COURT OF APPEALS
SOUTHERN DISTRICT
ROBERT ALLEN,
Appellant,
vs.
JEFFREY NORMAN,
Respondent.

)
)
)
)
)
)
)
)
)

No. SD35655

MOTION FOR REHEARING AND
APPLICATION FOR TRANSFER
This appeal raises the question of general interest
and importance of whether the Eighth Amendment
to the federal Constitution requires the State to
resentence to a more lenient punishment an offender
who committed capital murder, first-degree murder,
and armed criminal action while under age eighteen.
The court imposed consecutive sentences of life
without parole for fifty years, life, and life in prison.
This Court held that this sentence invalid.
EXISTING LAW THAT REQUIRES
REEXAMINATION
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo.
2017)
CONTRARY APPELLATE DECISIONS

34a
Willbanks v. Missouri Department of Corrections, 522
S.W.3d 238 (Mo. 2017).
Virginia v. Leblanc, 137 S. Ct. 1726 (2017)
State v. Hart, 404 S.W.3d 232 (Mo. 2013).
Miller v. Alabama, 567 U.S. 460 (2012).
I. STATEMENT OF FACTS
Robert W. Allen is guilty of brutally robbing and
murdering an elderly couple for petty case. State v.
Allen, 710 S.W. 2d 912, 913 (Mo. App. W.D. 1986).
When Allen was sixteen, he and an accomplice
decided to rob an elderly couple because the couple
was old and their social security checks had arrived
in the mail. Id. at 914. The pair cut the telephone
wires to the victims’ house, before going to the door
and telling the female victim their car had slid off
the road. Id. Allen and his accomplice next forced
their way in and searched the home for things to
steal. Id. Allen then clubbed the female victim three
times with a night stick and his accomplice clubbed
the male victim twice in the head with the butt of a
knife. Id. They tied the victims up, laid the victims of
their stomachs, and killed them by stabbing them in
the back of the neck. Id. Allen and his accomplice
then stole $140 each. Id.
A jury found Allen guilty of capital murder, firstdegree murder, and armed criminal action. And,
because no lesser sentence would serve the public
interests in retribution and deterrence, and because
the jury was divided on the propriety of the death

35a
penalty for Allen, the trial court sentenced him to
three consecutive terms, one for each crime—of life
imprisonment without probation or parole for fifty
years, of life imprisonment, and of life imprisonment.
Id. at 913, 916. He now resides at the South Central
Correctional Center in Licking, Missouri under this
sentence and judgment.
Decades after the jury convicted him and the trial
court sentenced him, Allen petitioned for habeas
corpus in the Circuit Court of Texas County,
Missouri. He alleged that his mandatory life without
parole for fifty-year sentence violates the Eighth
Amendment because it is cruel and unusual
punishment to impose this sentence on a murderer
who was under eighteen years old at the time of his
offenses. Appendix at A3-A4. The Circuit Court of
Texas County denied his petition. Appendix A3-A6.
The Circuit of Texas County found that the
decision of the Missouri Supreme Court in Willbanks
v. Missouri Department of Corrections, 522 S.W.3d
238 (Mo. 2017) requires denying Allen a writ of
habeas corpus. Appendix A4-A6. The Missouri
Supreme Court in Willbanks had ruled that the
Eighth Amendment provides no relief to an offender
who committed multiple crimes and received
multiple consecutive sentences, and so the court was
careful not to expand United State Supreme Court
precedent beyond the opinions. Id. at A5-A6. The
circuit court also explained why State ex rel. Carr,
527 S.W.3d 55 (Mo. 2017), provided Allen no relief.
The court in Carr imposed the minimum sentence,
suggesting that an even lighter sentence might be
appropriate punishment for the single offence that
Carr committed, but here the judge found life

36a
without the possibility of parole for fifty years to be
an insufficiently severe punishment for Allen, and so
it imposed two consecutive life sentences as well.
Appendix A6.
Allen then filed a petition for writ of habeas
corpus in the Missouri Court of Appeals Southern
District. In re Allen v. Norman, slip op. S.D. 35655
(Mo. App. S.D. Nov. 27, 2018). A panel of this Court
granted a writ of habeas corpus holding that any life
sentence that contains a parole ineligibility term of
fifty years is unconstitutional, no matter the number
or severity of additional crimes committed. Id. at *36. The panel ordered resentencing on only that
sentence, not the two consecutive life sentences. Id.
The panel held that, as in Carr, Allen received a
sentence of life without the possibility of parole for
fifty years, and that sentence is unconstitutional,
even though Carr did not concern consecutive
sentences. Id. The panel held that Willbanks did not
apply, even though in Willbanks the Missouri
Supreme Court held multiple consecutive sentences
totaling 355 years, and parole ineligibility that
extended beyond a normal human life expectancy, to
be constitutional for a juvenile offender. The panel
found that Willbanks is distinguishable, because the
petitioner in Willbanks did not receive a sentence of
life without the possibility of parole for fifty years.
Id.
II. Basis for Transfer
The decision presents the question of general
interest and importance of whether a sentence of life
without the possibility parole for fifty years is

37a
unconstitutional, even though it is followed by
multiple consecutive life sentences for other offenses
committed in on transaction. This question is
important in itself to be resolved, but especially here,
it requires further examination. The panel decision
and prior state supreme court precedent conflicts
with U.S. Supreme Court and other precedents. And
it requires the State to give a heinous murderer early
parole eligibility without any basis in the federal
Constitution.
A. The panel decision conflicts with
Willbanks, Nathan, and United States
Supreme Court precedent.
The Missouri Supreme Court has held that the
Eighth Amendment allows multiple consecutive
sentences for a juvenile offender, even if the
sentences last hundreds of years and create a parole
ineligibility period that is longer than a normal
human life expectancy, and even if the offender
committed his crimes under age eighteen. Willbanks
v. Missouri Department of Corrections, 522 S.W.3d
238 (Mo. 2017). In Willbanks, that court drew a
bright line: no United State Supreme Court prohibits
multiple sentences for multiple nonhomicide crimes.
Id. at 246. And, in a companion case, it also held that
sentencing a juvenile defendant to consecutive,
lengthy sentences for multiple nonhomicide and
homicide offenses was also not the functional
equivalent of life without the possibility of parole.
State v. Nathan, 522 S.W.3d 881, 892 (Mo. banc
2017).
That said, the Missouri Supreme Court ordered
resentencing in a case that did not involve

38a
consecutive punishments for multiple crimes. In
Carr, a juvenile offender who committed three
murders received three concurrent life sentences
with parole ineligibility for fifty years. State ex rel.
Carr v. Wallace, 527 S.W.3d 55 (Mo. 2017). Unlike in
Willbanks, where the sentences were consecutive,
the Missouri Supreme Court held that this sentence
was unconstitutional because the sentences were
concurrent and functionally amounted to a single
mandatory sentence of life without parole. Id. at 61
n.7.
But, whether or not Carr was rightly decided,
Carr does not apply here. Instead, Allen’s case falls
under the framework for analyzing consecutive
sentences found in Willbanks and Nathan. Allen’s
sentencing court found inadequate a life sentence
with parole ineligibility for fifty years, and so it
imposed two consecutive life sentences as well. In
Carr, the sentencing court imposed the legal
mandatory minimum sentence. But Allen’s sentence
of parole eligibility after his fifty-year sentence (and
after three years on his other sentences) is not the
same as a life sentence for a single crime. And under
Miller, Willbanks, and Nathan there is no
requirement of parole eligibility before fifty years, let
alone this kind of entitlement when the offender
committed multiple crimes.
The sole reason that the panel gave for
distinguishing these precedents is that Allen
received a life without parole eligibility for fifty
years’ sentence. But the life without parole eligibility
for fifty years’ sentence cannot be analyzed alone.
Allen’s sentence is not a singular term for a singular
crime. This Court thus should refuse to blind its eyes

39a
to his true sentence of consecutive terms for
consecutive crimes, and it should hold that
Willbanks and Nathan analyze and permit his type
of sentence.
The Supreme Court’s Eighth Amendment
precedent requiring resentencing for lengthy
juvenile sentences goes no further than Willbanks
and Nathan. It is limited to juvenile offenders
sentenced to life without parole solely for a
nonhomicide offense, or to a single mandatory life
without parole sentence for murder, and it does
not apply to a person guilty of murder along with
multiple other offenses resulting in consecutive
sentences. Nathan, 522 S.W.3d at 888. Simply
put, this precedent has no application to Allen’s
convictions and multiple consecutive sentences,
because the U.S. Supreme Court “did not address
the constitutional validity of consecutive
sentences, let alone the cumulative effect of such
sentences.” Id. at 891.
The state courts are not free to go beyond what
the Supreme Court has held. Missouri’s “justice
system that recognizes multiple violent crimes
deserve multiple punishments.” Id. at 892.
“Therefore, Missouri is permitted to enforce its
current sentencing scheme and this Court is
obligated to enforce it until the Supreme Court of the
United States extends its Eighth Amendment
jurisprudence to prohibit what is currently
permitted.” Id.
This Court thus lacks any authority to expand
Carr from below to overrule Willbanks and Nathan.
It should rehear or transfer the case.

40a
B. The Missouri Supreme Court should
reexamine and overrule State ex rel. Carr
v Wallace because it conflicts with
Willbanks, Nathan, Miller, Leblanc, and
Hart.
But even if Carr is extended to Allen’s sentence,
then this case should be transferred to the Missouri
Supreme Court to reexamine and overrule Carr.
The United States Supreme Court in Miller held
that a single mandatory life without parole sentence
for an offender who committed his crime while under
age eighteen violates the constitution. Miller v.
Alabama, 567 U.S. 460 (2012). It did not hold that a
term of years is the functional equivalent of a life
sentence. And it did not hold that parole eligibility
must exist for juveniles who commit multiple crimes
and receive multiple consecutive sentences.
Then, in Leblanc, a later habeas corpus case, the
Court confirmed the plain import of Miller, and held
that it was not contrary to nor an unreasonable
application of Miller to hold that Miller allows
geriatric parole rather than earlier release. Virginia
v. Leblanc, 137 S. Ct. 1726 (2017).
Leblanc tracks Missouri Supreme Court
precedent because it confirms that United States
Supreme Court precedent does not at present require
more than Miller. Willbanks, 522 S.W.3d at 246. The
Missouri Supreme Court historically has read the
ban in Miller as applying to a mandatory life without
parole sentence: nothing more, nothing less. State v.
Hart, 404 S.W.3d 232 (Mo. 2013).

41a
But in Carr, the Missouri Supreme Court allowed
an aberration to enter its jurisprudence. It expanded
the holding in Miller from prohibiting a mandatory
sentence of life without parole to prohibit a
mandatory sentence of life in prison with parole
eligibility after fifty years. Carr, 527 S.W.3d at 61.
The dissent in Carr pointed out that the majority
extended Miller beyond its plain application, and
thus the decision in Carr called into question
whether any mandatory-minimum sentence could
ever be imposed on a juvenile offender. Id. 63-64
(Fisher, C.J., dissenting).
Carr was wrong when it was decided and it is
wrong today. This opinion has no basis under the
original public meaning of the Eighth Amendment or
the limited import of the U.S Supreme Court’s
precedents. It should be overruled.
But worse, as discussed above in Part I, the panel
decision expands Miller even beyond Carr and thus
its decision conflicts with Miller and Leblanc even
more. Carr prohibited a (functionally-single)
mandatory sentence of life in prison with parole
eligibility after fifty years, deeming life without
parole for fifty years to be the functional equivalent
of life without parole for a single crime. Yet the panel
opinion reads Miller to find the United States
Constitution bans a sentence of life without parole
for fifty years followed by two consecutive life
sentences for multiples offences.
This goes beyond Carr and conflicts with
Willbanks, Nathan, and State v. Hart, 404 S.W.3d
232 (Mo. 2013). “Nothing in Miller or Graham takes
away a sentencer’s (the circuit court in this case)

42a
authority to run sentences consecutively for a
homicide offense alone with multiple nonhomicide
offenses.” Nathan, 522 S.W.3d at 892-93. And “the
Supreme Court has not held that multiple fixed-term
sentences totaling beyond a juvenile offender’s life
expectancy are the functional equivalent of life
without parole.” Willbanks, 522 S.W.3d at 246.
The panel’s further expansion of Miller
underscores the need for a reexamination of Carr.
State courts, especially lower state courts, should not
take it on themselves to extend U.S. Supreme Court
precedent. Id. But this decision takes exactly that
forbidden step.
CONCLUSION
This Court should rehear the case, rehear the
cases en banc, or transfer the case to the Supreme
Court of Missouri.
Joshua D. Hawley
Attorney General
/s/ Michael J. Spillane
Michael J. Spillane
Mo. Bar No. 40704
Assistant Attorney General
P.O. Box 899
Jefferson City, MO 65102-0899
(573) 751-1307
(573) 751-3825 (Facsimile)
Mike.Spillane@ago.mo.gov
Attorneys for Appellant

43a
CERTIFICATE OF SERVICE
I hereby certify that the above was filed through
Case.net on December 7, 2018, and thereby served to
the parties.
/s/ Michael J. Spillane
Assistant Attorney General

44a
No. SD35655
_____________
Missouri Court of Appeals
Southern District
IN RE: ROBERT W. ALLEN
Petitioner,
v.
JEFF NORMAN, WARDEN,

SOUTH CENTRAL CORRECTIONAL CENTER,

Respondent.
PETITIONER’S REPLY BRIEF

Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Craig.Johnston@mspd.mo.gov
Attorney for Robert W. Allen

45a
INDEX
TABLE OF AUTHORITIES ...................................... .2
ARGUMENT ............................................................. 3
CONCLUSION: .......................................................... 9
CERTIFICATE OF COMPLIANCE AND SERVICE
................................................................................... 10
CASES:

TABLE OF AUTHORITIES

Miller v. Alabama, 567 U.S. ___, 132 S.Ct. 2455
(2012) ................................................................. .3, 5, 6
Sammie D. Taylor v. Jeff Norman, No. 17TECC00476 ............................................................ 3, 7, 8
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo.
banc 2017) .............................................. 3, 4, 5, 7, 8, 9
State v. Nathan, 404 S.W.3d 253 (Mo. banc 2013)
......................................................................... 3, 5, 6, 8
State v. Nathan, 522 S.W.3d 881 (Mo. banc 2017)
........................................................................... 5, 6, 8
State v. Olivas, 431 S.W.3d 575 (Mo. App. W.D. 2014)
................................................................................. 3, 6
State v. Sammie Taylor, No. 22821-03909B .............. 8

46a

Willbanks v. MDOC, 522 S.W.3d 238 (Mo. banc 2017)
......................................................................... 4, 5, 6, 8
CONSTITUTIONAL PROVISIONS:
U.S.Const., Amend VIII .................................. 3, 4, 6, 8
Article I, § 21, Mo. Const. ......................................... 3
REPLY ARGUMENT
Petitioner is entitled to a writ of habeas
corpus on his sentence of life without parole
(LWOP) for 50 years for a capital murder
offense he committed when he was 16 years
old, because this sentence is unconstitutional
under State ex rel. Carr v. Wallace, State v.
Nathan (Nathan I), Miller v. Alabama, 1 the 8th
and 14th Amendments to the U.S. Constitution,
and Art. I, § 21 of the Mo. Constitution, as
applied to juveniles, in that Petitioner’s
mandatory sentence of LWOP for 50 years did
not afford the sentencer an opportunity to
consider Petitioner’s age, maturity, limited
control over his environment, the transient
characteristics attendant to youth, or his
capacity for rehabilitation.
The fact that there were two other
sentences ordered to run consecutively to the
unconstitutional capital murder sentence does
not change result, because as illustrated by the
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo. banc 2017);
State v. Nathan, 404 S.W.3d 253 (Mo. banc 2013) (Nathan I);
Miller v. Alabama, 567 U.S. 460 (2012).
1

47a
Missouri Supreme Court’s decision in Nathan
I, and as conceded by Respondent in another
case (Taylor v. Norman, cited below) and by the
attorney general’s office in another case (State
v. Olivas, cited below), even if there are other
sentences ordered to run consecutively to an
unconstitutional sentence, the inmate is still
entitled
to
resentencing
as
to
the
unconstitutional sentence.
Respondent concedes that “a mandatory sentence
of life without parole for fifty years would violate the
Eighth Amendment for a single offense for an
offender under age 18 under the Missouri Supreme
Court’s decision in State ex rel. Carr v. Wallace, 527
S.W.3d 55 (Mo. banc 2017).” (Respondent’s Brief at
8). Petitioner Allen has such an unconstitutional
sentence (Exhibit 2).
But Respondent asserts, contrary to its concession
in other cases cited in Petitioner’s opening brief and
below, that because of the mere fact that there are
other sentences ordered to run consecutively to that
unconstitutional sentence, that all of Allen’s
sentences, including the unconstitutional one, are
thereby made constitutional (Respondent’s Brief at
8).
In making its argument, Respondent relies
almost entirely on Willbanks v. Missouri Department
of Corrections, 522 S.W.3d 238 (Mo. banc 2017), a
non-homicide case that was decided on the same day
as Carr. But, as also explained in Petitioner’s
opening brief, Willbanks does not control because,
although Willbanks involved consecutive sentences,
none of the sentences in that case were

48a
unconstitutional. The most Willbanks was required
to serve on any one sentence was 25.5 years – almost
half than involved for capital murder in Carr and
Petitioner’s cases.
Thus, Willbanks merely holds that a habeas
petitioner cannot, with consecutive sentences, add
the minimum parole eligibility of each sentence
when making an Eighth Amendment violation claim.
In other words, consecutive lengthy sentences for
multiple crimes in excess of a juvenile’s life
expectancy do not violate the Eighth Amendment
when none of the sentences standing alone is
unconstitutional.
Contrary to Respondent’s argument, the key
distinction between Carr and Willbanks is not how
the sentences were ordered to run (concurrently
versus consecutively). That is a factual distinction in
the case, as is the fact that Carr involved homicide
offenses, and Willbanks did not. But the key
distinction is that Carr was sentenced to life without
parole for 50 years, which was the harshest available
penalty other than death, under a mandatory
sentencing scheme that afforded the sentencer no
opportunity to not only consider but also to give
effect to Carr’s age, maturity, limited control over his
environment, the transient characteristics attendant
to youth, or his capacity for rehabilitation since the
only available sentence for capital murder for a
juvenile, other than death, was life without parole
for 50 years. Carr v. Wallace, 527 S.W.3d at 60-62.
That it is the length and mandatory nature of the
sentence, rather than the consecutive nature as
argued by Respondent, that is the key distinction

49a
between Carr and Willbanks is illustrated by what
happened in State v. Nathan, 404 S.W.3d 253 (Mo.
banc 2013) (Nathan I) (reversing a count of firstdegree murder because the imposition of a
mandatory life without parole sentence constituted
cruel and unusual punishment under Miller).
In Nathan I, the trial court sentenced Nathan to
life without parole for first-degree murder, and it
also sentenced Nathan, among other sentences, to
five life sentences (with parole) and five 15-year
sentences for non-homicide crimes, all of which were
to be served consecutively to each other and to the
sentence for first-degree murder. Nathan I, 404
S.W.3d at 256-57.
Although Nathan’s life without parole sentence
for first-degree murder had 10 other sentences
ordered to run consecutively to it, the Supreme Court
of Missouri reversed the first-degree murder
sentence and remanded the case for Nathan to be resentenced as to the first-degree murder conviction
only. Id. at 270-71. Thus, contrary to Respondent’s
position in this case, if one part of a sentence is
impermissible, the defendant is entitled to be
resentenced as to the unconstitutional part of the
sentence even if there are other sentences running
consecutively to it.
In response to Nathan I, Respondent baldly
asserts, without any authority, that Nathan I does
not apply “because it has been superseded.”
(Respondent’s Brief at 9). But that is not true. On the
same day that Willbanks and Carr were decided, the
Supreme Court also decided State v. Nathan, 522
S.W.3d 881 (Mo. banc 2017) (Nathan II). In Nathan

50a
II, the Court frequently referred to its earlier opinion
in Nathan I, and there was not even a hint that
anything in its prior opinion in Nathan I was
“superseded,” as argued by Respondent:
[In Nathan I] [t]his Court unanimously
held the circuit court erred in dismissing the
four counts for lack of jurisdiction and
remanded for resentencing on those
convictions as well as for resentencing on
Nathan’s first-degree murder conviction
because the original sentence “was imposed
with no individualized consideration of the
myriad of factors discussed in Miller.”
[Citation omitted]. A majority of this Court
further held that Nathan would be entitled to
reassert his right to jury-recommended
sentencing on remand for the sentences he
appealed. [Citation omitted].
Nathan II, 522 S.W.3d at 883-84.
The mere fact that Nathan I was decided before
Willbanks does not mean that it has been
“superseded,” as argued by Respondent.
Further, Nathan II also noted, regarding the
consecutive non-life-without-parole sentences that
Nathan received after remand from Nathan I, that
“[n]either the dissenting opinion nor Nathan claim,
nor could it be argued, that any one of these
particular sentences violates the Eighth Amendment.”
Nathan, 522 S.W.3d at 891, n.15 (emphasis added).
Thus, the difference between Nathan I and Nathan
II (as well as Willbanks) is not the consecutive
nature of the sentences, since both Nathan I and

51a
Nathan II involved such sentences; rather, the key
distinction was the length (LWOP) and mandatory
nature of the first-degree murder sentence in Nathan
I, rather than the consecutive nature of the
sentences.
Respondent also attempts to distinguish State v.
Olivas, 431 S.W.3d 575 (Mo. App. W.D. 2014), where
the defendant was given consecutive sentences of life
without parole and life for convictions for first-degree
murder and armed criminal action, respectively; yet
the court of appeals, with the attorney general’s
office conceding error, reversed and remanded for
resentencing because the life without parole sentence
was unconstitutional under Miller.
Now, However, the attorney general’s office
asserts “Olivas is distinguishable from the current
case in the (sic) defendant in Olivas had only one
murder conviction and armed criminal action
sentence linked to that murder, not two murder
convictions as here.” (Respondent’s Brief at 22). But
that alleged “distinction” makes no sense under
Respondent’s current argument, which would make
any sentence constitutional if it involves consecutive
sentences, regardless of the type of offense.
Respondent does not explain why a mandatory life
without parole sentence for first-degree murder
would be unconstitutional if an armed criminal
action sentence was ordered to run consecutively to
it, but it would be constitutional if a sentence for
another murder offense was ordered to run
consecutively to it.
Petitioner’s opening brief noted that what
happened here is contrary to Sammie D. Taylor v.

52a
Jeff Norman, No. 17TE-CC00476, where the habeas
court granted habeas relief to Taylor in the same
count, Texas County, Missouri, on the same issue,
with the same Respondent (Jeff Norman). In that
case, Taylor had been sentenced to a mandatory term
of life without parole for 50 years for capital murder,
and he was also sentenced in the same case to life
sentences for three other counts (first-degree assault
and two counts of first-degree robbery), with the
sentence for the assault count to run consecutively to
the capital murder count, and the sentences for the
robbery counts to run concurrently to the other two
counts.
Respondent Norman in Taylor, who is the same
Respondent as in this case, filed a Response wherein
it conceded that under Carr, Taylor was entitled to
habeas corpus relief as to the capital murder count.
Respondent Norman also filed a proposed
Conditional Writ of Habeas Corpus, which was later
signed by the habeas court, wherein Respondent
agreed that, as to the capital murder count, Taylor
should be ordered discharged from his life without
parole for 50-year sentence for capital murder unless
the sentencing court held a new sentencing
proceeding that comported with the procedures
outlined by the Supreme Court of Missouri in Carr,
but Respondent’s custody of Taylor as to Taylor’s
other non-capital murder sentences were not to be
affected by that order. 2
2 Because Taylor’s remedy only went to the capital murder
sentence, and not to the other non-capital murder sentences,
contrary to Respondent’s argument (Respondent’s Brief at 2021), there is an incentive to avoid escalating the crime and not
commit other offenses.

53a
Respondent asserts that it and the circuit court
“got it wrong” in Taylor, and that Taylor received “a
windfall” that Petitioner Allen should not receive
(Respondent’s Brief at 22). Petitioner Allen believes
that Respondent got it correct in Taylor, and that
Petitioner Allen receiving the same remedy as Taylor
is not a windfall, rather it is in accord with Carr and
Nathan I. 3
If Carr, Willbanks, Nathan I, and Nathan II are
read together, this Court should conclude that in
Missouri, mandatory sentences of life without parole
or life without parole for 50 years are
unconstitutional for defendants who were under the
age of 18 at the time of the offense, even if there are
other sentences ordered to run consecutively to the
unconstitutional sentence; whereas, if each
individual sentence is constitutional, a defendant
cannot make a successful Eighth Amendment
challenge by adding the minimum parole eligibility
dates of consecutive sentences.
Petitioner is entitled to habeas corpus relief, and
he must be resentenced under the procedures set out
in Carr.
CONCLUSION

Subsequently, at resentencing, on October 12, 2018, Taylor’s
life-without-parole for 50 year sentence was not found to be just
and appropriate, and as a result he received a life (with parole)
sentence under former first-degree murder (equivalent to the
present second-degree murder), and the other two counts were
not affected. State v. Sammie Taylor, No. 22821-03909B.
3

54a
This Court should enter an order granting habeas
corpus relief to petitioner, vacate Petitioner’s
conviction and sentence for capital murder, and
remand the case for resentencing in Jackson County,
Missouri, under Carr, supra.
Respectfully Submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov
CERTIFICATE OF COMPLIANCE AND
SERVICE
I certify that the attached reply brief complies
with Rule 84.06(b) and contains 2,027 words as
counted by Microsoft Word, excluding the cover page,
the signature block, and this certificate of compliance
and service, which does not exceed the 7,750 words
allowed for a reply brief; and that on this 29th day of
October, 2018, an electronic copy of Appellant’s
Reply Brief was sent through the Missouri e-Filing
System to opposing counsel of record.
/s/ Craig A. Johnston

55a
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov

56a

No. SD35655
–––––––––––––––––––––––––––––––––––––––––––––––––
In the
Missouri Court of Appeals
Southern District
–––––––––––––––––––––––––––––––––––––––––––––––––
ROBERT ALLEN,
Petitioner,
v.
JEFF NORMAN, WARDEN, SOUTH CENTRAL
CORRECTIONAL CENTER,

Respondent.
–––––––––––––––––––––––––––––––––––––––––––––––––
RESPONDENT’S BRIEF
–––––––––––––––––––––––––––––––––––––––––––––––––

JOSHUA D. HAWLEY
Attorney General
MICHAEL J. SPILLANE
Assistant Attorney General,
Missouri Bar No. 40704
P. O. Box 899
Jefferson City, MO 65102
(573) 751-1307
mike.spillane@ago.mo.gov
Attorneys for Respondent

57a

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... 3
STATEMENT OF FACTS .......................................... 5
SUMMARY OF ARGUMENT .................................... 7
ARGUMENT ............................................................... 9
I. Because this case involves a categorical ban
on a punishment for class of individuals the
proper analysis is guided by Graham v. Florida
................................................................................... 10
II. Graham v. Florida holds that a categorical
ban on a punishment for a class of offenders
requires both a national consensus and the
lack of penological justification for the
punishment ............................................................ 14
III. Allen does not plead or prove either a
national consensus or a lack of any penological
justification for his punishment, and the
penalty imposed in his case is permissible
under
Graham
and
its
progeny
…………………………………………………………… 17
IV. The Missouri precedents of Willbanks and
Carr show that Allen’s punishment is
constitutional ......................................................... 19

58a
V. Given Willbanks, the cases Allen cites do not
really support his position……………………….21
CERTIFICATE OF SERVICE AND COMPLIANCE
…………………………………………………………… 24
TABLE OF AUTHORITIES
Cases
Graham v. Florida,
560 U.S. 48 (2010) ..............................................passim
Miller v. Alabama,
567 U.S. 460 (2012) ......................................... 9, 10, 18
Montgomery v. Louisiana,
136 S.Ct. 718 (2016) ............................................. 9, 11
Roper v. Simmons,
543 U.S. 551 (2005) ..................................................... 9
State ex rel. Carr,
527 S.W.3d 55 (Mo. 2017 ...................................passim
State v. Allen,
710 S.W.2d 912 (Mo. App. W.D. 1986) ........... 5, 19, 20
State v. Nathan,
404 S.W.3d 253 (Mo. 2013) .................................. 9, 22

59a
State v. Nathan,
522 S.W.3d 881 (Mo. 2017) .................. 7, 11, 12, 13 16
State v. Olivas,
431 S.W.3d 575 (Mo. App. W.D. 2014) ..................... 20

United States v. Buffman,
464 F. App’x 548 (7th Cir. 2012) ............................. 21
United States v. Reibel,
688 F.3d 688 (7th Cir. 2012)..................................... 21
Willbanks v. Missouri Department of Corrections,
522 S.W.3d 238 (Mo. 2017)………………………passim
INTRODUCTION
This Court should not expand the
Supreme
Court’s
Eighth
Amendment
jurisprudence to create a new category of
juvenile violent criminals eligible for early
parole. Allen received a constitutional set of
sentences for his multiple instances of criminal
activity, and so, the Court should deny the
petition for writ of habeas corpus.
STATEMENT OF FACTS
Robert W. Allen is guilty of brutally robbing and
murdering an elderly couple for their social security
checks. He resides at the South Central Correctional
Center in Licking, Missouri because of the sentence
and judgment that the Circuit Court of Jackson

60a
County imposed for his crimes. A jury found Allen
guilty of capital murder, first-degree murder, and
armed criminal action for which the trial court
imposed consecutive sentences of life imprisonment
without probation or parole for fifty years, life
imprisonment, and life imprisonment. State v. Allen,
710 S.W.2d 912, 913 (Mo. App. W.D. 1986).
When he was 16, Allen and an accomplice decided
to rob an elderly couple because the couple was old
and their social security checks had arrived in the
mail. Id. at 914. The pair cut the telephone wires to
the victims’ house then went to the door and told the
female victim their car had slid off the road. Id. Allen
and his accomplice forced their way into the house
and searched it for things to steal. Id. Allen clubbed
the female victim three times with a night stick and
his accomplice clubbed the male victim twice in the
head with the butt of a knife. Id. They tied the
victims up, laid the victims on their stomachs, and
killed them by stabbing them in the back of the neck.
Id. Allen and his accomplice stole cash totaling
$280.00, and each took $140.00. Id.
Decades after the jury convicted him and the trial
court sentenced him, Allen petitioned for habeas
corpus in the Circuit Court of Texas County,
Missouri. He alleged that his mandatory life without
parole for fifty years’ sentence violates the Eighth
Amendment to the United Sates Constitution
because it is cruel and unusual punishment to
impose such a sentence who was under 18 years old
at the time of the offense. Appendix at A3-A4. The
Circuit Court of Texas County denied the petition.
Appendix A3-A6.

61a
The Circuit of Texas County found that the
decision of the Missouri Supreme Court in Willbanks
v. Missouri Department of Corrections, 522 S.W.3d
238 (Mo. 2017) dictates denial of a writ of habeas
corpus to Allen. Appendix A4-A6. The court found
that the Missouri Supreme Court in Willbanks
emphasized the consecutive nature of the sentences
and was cautious not to expand relevant United
States Supreme Court precedents beyond the four
corners of the opinions. Id. At A5-A6. The court also
distinguished State ex rel. Carr, 527 S.W.3d 55 (Mo.
2017) by noting that the judge in Carr imposed the
minimum sentence that he had discretion to impose,
but here the judge found life without the possibility
of parole for 50 years to be an insufficiently severe
punishment, and imposed two consecutive life
sentences to run after the first life sentence.
Appendix A6.
Allen now asks this Court for a writ of habeas
corpus, finding that his capital murder sentence is
void and ordering that he have a new sentencing
proceeding. Petitioner’s Brief at A18. Allen also asks
that if the trial court does not again sentence him to
life without parole for 50 years, that the trial court
also resentence him on the armed criminal action
count. Id.
Summary of Argument
This petition concerns a juvenile offender who
received multiple, consecutive terms in prison after
he committed multiple, brutal crimes. The
sentencing court imposed a sentence of life without
parole for fifty years, followed by two consecutive
terms of life imprisonment, for a series of crimes in

62a
which Allen and an accomplice brutally murdered an
elderly couple to steal their social security benefits.
In Willbanks v. Missouri Department of
Corrections, 522 S.W.3d 238 (Mo. 2017), and State v.
Nathan, 522 S.W.3d 881 (Mo. 2017), the Missouri
Supreme Court held that, under the Supreme Court’s
precedents, the Eighth Amendment does not prohibit
consecutive sentences even if, under the aggregate
sentence, the juvenile will not be eligible for parole in
his natural life. Allen committed murder and other
violent crimes as a teenager, and he was sentenced
to several consecutive terms in prison. Standing
alone, or imposed concurrently with other sentences,
a mandatory sentence of life without parole for fifty
years would violate the Eighth Amendment for a
single offense for an offender under age 18 under the
Missouri Supreme Court’s decision in State ex rel
Carr v. Wallace, 527 S.W.3d 55 (Mo. 2017). But the
analysis is different when, as here, a court has
chosen to impose consecutive, additional sentences
for each crime. In that circumstance, no individual
sentence is analyzed on its own for whether it would
be impermissible. It does not matter whether one
part of the sentence would be impermissible standing
alone. Instead, the aggregate sentence is analyzed
under the framework in Willbanks.
In Willbanks, the Missouri Supreme Court upheld
consecutive sentences that, added together, totaled
life plus 355 years, with no collective parole
eligibility during a normal human life expectancy.
For a punishment categorically to violate the Eighth
Amendment for a class of offenders there must be a
national consensus that the punishment violates the
Eighth Amendment, and there must be a no

63a
penological
justification
that
supports
the
punishment, making it disproportionate to the crime.
Allen, who has the burden of persuasion, has
presented no argument of a national consensus
against the punishment he received, and no
penological justifications for a punishment such as
this, when a court has imposed consecutive sentences
for multiple violent felonies, are apparent. The
denial of the writ is supported by the Missouri
Supreme Court decision in Willbanks and by the
Carr decision, in which the Missouri Supreme
distinguished Carr because the three life without
parole for fifty-year sentences were concurrent.
Willbanks controls this case, not Carr or Nathan.
Carr does not concern a situation in which an
offender receives multiple consecutive punishments
for multiple crimes. Nor does the earlier decisions in
State v. Nathan, 404 S.W.3d 253 (Mo. 2013) apply
because it has been superseded. In that case, an
offender was resentenced despite consecutive
sentences but the Missouri Supreme Court decided
the case years before the Willbanks decision, and
that decision now controls.
Argument
The sentencing court did not violate the Eighth
Amendment by imposing consecutive sentences
of life without the possibility of parole for fifty
years,
life
imprisonment,
and
life
imprisonment on an offender who was under
age eighteen when he committed two murders
and armed because the reasons justifying
punishment and the analysis of those reasons

64a
is different in a case of multiple consecutive
sentences for multiple violent felonies than it
is for the offenses considered by the United
States Supreme Court in Graham, Miller, and
Montgomery, in that the reasoning in Willbanks
controls this case.
The Eighth Amendment prohibits a State from
inflicting cruel and unusual punishments. U.S.
Const, amend, viii. The Supreme Court has
interpreted this Amendment to prohibit the death
penalty for juvenile offenders, Roper v. Simmons, 543
U.S. 551 (2005); to prohibit a mandatory sentence of
life in prison without parole for a juvenile offender
convicted of a homicide offense, Miller v. Alabama,
567 U.S. 460 (2012); and to prohibit a sentence of life
in prison without parole for a juvenile offender
convicted of a non-homicide offense, Graham v.
Florida, 560 U.S. 48 (2010).
But the U.S. Supreme Court has never
interpreted the Eighth Amendment to preclude
consecutive sentences for multiple crimes that result
in an aggregate term of imprisonment rendering the
juvenile offender eligible for parole in old age or even
past a normal life expectancy. Out of respect for the
textual limits of the Eighth Amendment and the
instructions of past precedents, this Court should not
do so now. Unlike the sentences that the Supreme
Court held unconstitutional in Miller and Graham,
Allen did not receive sentence of life in prison
without the possibility of parole for an individual
crime or a solely receive a sentence of life without
parole for fifty years for an individual crime. Instead,
he
received
several
consecutive
sentences,

65a
corresponding to the number and severity of his
crimes, with an opportunity for parole in old age.
I. Because this case involves a categorical ban
on a punishment for class of individuals the
proper analysis is guided by Graham v.
Florida.
In Miller v. Alabama, 567 U.S. 460 (2012), the
Unites States Supreme Court held that the
mandatory imposition of a sentence of life without
parole for murder, an offender who was under 18 at
the time of the murder, violates the ban on cruel and
unusual punishment in the Eighth Amendment to
the United States Constitution. The United States
Supreme Court in Montgomery v. Louisiana, 136
S.Ct. 718 (2016) held that Miller was a substantive
categorical ban on a type of punishment for a class of
offenders and was therefore retroactive to cases on
collateral review.
The Missouri cases of State ex rel. Carr v.
Wallace, 527 S.W.3d 55 (Mo. 2017), Willbanks v.
Missouri Department of Corrections, 522 S.W. 3d 238
(2017), and State v. Nathan, 522 S.W.3d 881, 885
(Mo. 2017) have direct roots in Miller. In Nathan and
Willbanks, the Missouri Supreme Court held that the
Eighth Amendment does not prohibit the State from
sentencing a juvenile offender who committed
multiple crimes to multiple consecutive terms of
imprisonment, with the effect that the offender is
eligible for parole in old age. Neither Miller nor
Graham affects sentences other than those of a
single sentence of life without parole given for a
single offense. The Missouri cases of Carr and
Willbanks, like Miller, therefore are controlled by the

66a
analysis in cases such as Graham v. Florida, 560
U.S. 48 (2010) that set out the requirements for a
punishment to be categorically banned for a class of
offenders.
Simply put, the analysis turns on whether a court
imposed consecutive, additional sentences for each
separate offense. In that circumstance, a reviewing
court does not analyze any individual sentence for its
constitutionally. Instead, the aggregate sentence is
analyzed under the framework in the recent opinions
in Nathan and Willbanks. For that reason, even if
one part of the sentence would be impermissible
standing alone, under the recent opinions in Nathan
and Willbanks, the sentence still is analyzed as a
whole.
In response. Petitioner asserts that Carr controls
because it is a later opinion decided the same day as
Willbanks. Pet. Br. 15. But this assertion fails to
grapple with the reasoning in either opinion, which
in any event were issued simultaneously and, in the
Missouri Supreme Court’s view, do not conflict.
Instead, the court issued them to work in harmony
and illustrate the analysis proper to different
situations. Because the petitioner’s situation is of
multiple consecutive sentences for multiple crimes,
his situation is the same as in Willbanks–multiple
consecutive sentences for multiple crimes–and so
Willbanks’s analysis governs.
Falling back, the petitioner argues that Willbanks
does not apply because “none of those sentences
individually were as lengthy as the capital murder
sentences in Carr or in Petitioner’s cases.” Pet. Br.
15. He asserts that, if any individual sentence would

67a
be invalid standing alone, then the entire aggregate
sentence, no matter how many crimes the offender
committed, would be invalid. Pet. Br. 15-16.
But this assertion claims a distinction between
this case and prior precedents where in reality no
difference exists. The Supreme Court has never held
that its Eighth Amendment precedents invalidate a
long aggregate sentence imposed for multiple crimes:
it has “never applied that rationale to a justice
system that recognizes multiple violent crimes
deserve multiple punishments.” State v. Nathan, 522
S.W.3d 881, 892 (Mo. 2017).
Under this bright-line limit to the U.S. Supreme
Court’s precedents, as the Missouri Supreme Court
explained in Nathan and Willbanks, any time
consecutive sentences are imposed, the court
analyzes the aggregate sentence–and it makes no
difference how long or short the individual sentences
making up the aggregate are. A trial court has
“authority to decide a juvenile’s sentence for multiple
non-homicide offenses that, according to Missouri’s
sentencing statutes, may justify lengthy consecutive
terms of imprisonment.” Willbanks, 522 S.W.3d at
243. And in homicide cases, the Supreme Court’s
precedent does not extend to multiple consecutive
punishments for multiple crimes. As the Missouri
Supreme Court held, “the Supreme Court in Graham
did not address whether consecutive sentences
imposed on a juvenile offender who committed
multiple non-homicide offenses along with a
homicide offense, are unconstitutional pursuant to
the Eighth Amendment” which “is legally significant
distinguishing factor from Graham and an additional

68a
reason why Nathan’s sentences do not run afoul of
Graham.” Nathan, 522 S.W.3d at 887.
II. Graham v. Florida holds that a categorical
ban on a punishment for a class of
offenders
requires
both
a
national
consensus and the lack of penological
justification for the punishment.
In Graham v. Florida, 560 U.S. 48 (2010) the
Unites States Supreme Court set out the elements
that establish that a punishment categorically
violates the Eighth Amendment for a class of
individuals across a broad range of crimes. The
Court held that the first element is the existence of a
national consensus that the punishment violates
evolving standards of decency. Id. at 62.
The Court conducted two test for national
consensus. First, the Court counted the number of
legislatures that authorize the punishment, and
second the Court counted the number of times the
punishment was imposed, the number of states that
imposed the punishment, and the punishment’s
distribution within the group of states that imposed
it. Id. at 62-67.
The Court found that although 37 states, the
District of Columbia, and the United States all
theoretically permit life without parole sentences for
non-homicide offenders under age 18, only 11 states
have imposed the sentence, only 123 offenders were
serving such a sentence, and 77 of those are in the
single state of Florida. Id. at 65-67. From this
evidence the Court concluded that the sentencing
practice is exceedingly rare and that a national

69a
consensus has developed against it. The Court held
that because a national consensus existed against
the imposition of the penalty, the Court then had the
duty to analyze the culpability of the offenders
because of their crimes and characteristics and the
severity of the punishment to determine whether the
punishment for the class of individuals violates the
Eighth Amendment. Id. at 67.
The Graham Court found that because there was
a national consensus against the imposition of
juvenile life without parole sentences for nonhomicide offenses, the Court should do its own
evaluation of whether the penalty violates the
Eighth Amendment. Id. at 67. The Court held that
offenders under age 18, who did not kill or intend to
kill, the category the court was evaluating, and
which excludes Allen, have twice diminished moral
culpability compared to adult murders. Id. at 67. And
the Court found that life without parole is the most
severe noncapital punishment and is particularly
severe for a juvenile. Id. at 70-71. Bearing those
findings in mind, the Court evaluated the penalty for
proportionally by determining if it was justified by
the penological reasons of retribution, deterrence,
incapacitation, or rehabilitation, because a sentence
without a legitimate penological justification is
necessarily disproportionate. Id. at 71-74.
The Court found that the retribution of a life
without parole sentence on a juvenile non-homicide
offender is disproportionate because of the severity of
the punishment and the lessened culpability of
juveniles. Id. at 71-72. The Court found that
deterrence did not apply because juveniles often
make impetuous and ill-considered decisions and are

70a
less likely to consider a potential punishment,
particularly when it is rarely imposed. Id. at 72. The
Court found incapacitation does not justify the
punishment because some offenders’ criminal actions
may be explained by transient immaturity as
opposed to incorrigibility. Id. at 72-73. Finally, the
Court found that rehabilitation does not justify the
sentence, as life without parole by its nature makes
rehabilitation irrelevant by abandoning return to
society. Id. at 74. The Court held that the traditional
reasons for punishment do not justify the penalty
and that therefore the penalty is cruel and unusual
punishment. Id. at 74-75.
But this analysis is necessarily different for a
person who has committed multiple violent felonies
for which a court has determined consecutive
sentences are appropriate. Under Willbanks and
Nathan, the Eighth Amendment does not prohibit
consecutive sentences even if, under the aggregate
sentence, the juvenile will not be eligible for parole in
his natural life. And here, Allen committed murder
and other violent crimes as a teenager, and he was
sentenced to several consecutive terms in prison. In
this circumstance, no individual part of his sentence
is analyzed on its own for whether it would be
impermissible. Instead, the aggregate sentence is
analyzed under the framework in Graham and
Willbanks, and under these precedents, it remains
constitutional.
III. Allen does not plead or prove either a
national consensus or a lack of any
penolgical justification for his punishment,
and the penalty imposed in his case is
permissible under Graham and its progeny.

71a

Allen does not plead that there is a national
consensus against more severe punishment for
offenders like himself who have committed multiple
violent felonies, in his case two brutal murders and
an armed criminal action. Nor does he show that no
penolgical
purpose
supports
longer
parole
ineligibility for offenders who commit multiple
violent felonies under age 18, and are therefore
determined by judge to be worthy of consecutive
sentences, even if one of the sentences standing
alone might run afoul of Miller.
And he cannot plausibly do so. Retribution,
deterrence, and incapacitation are all logically served
by increasing parole ineligibility for each offense
committed, in a way they are not in Graham, which
banned a life without parole sentence for a single
offense. And limiting parole ineligibility to a set
period, no matter how many violent felonies an
offender commits, makes sentencing arbitrary as
opposed to suited to the offender.
When an offender commits two or three, or ten
violent felonies, he is more culpable than an offender
who commits only one. Thus, an increase in parole
ineligibility makes retributive sense. A court
recognizes this by imposing consecutive penalties, as
opposed to the default under Missouri law of
concurrent sentences.
Similarly, an offender who commits a violent
felony has an incentive not to commit another, or
another ten, if consecutive sentences create a
potential increase in parole ineligibility. But if there
is no real additional sanction, no matter how many

72a
violent felonies an offender commits after a certain
point, then there is no incentive not to commit an
unlimited number of felonies. So increases in parole
ineligibility when consecutive sentences are imposed
rationally serve both specific deterrence and general
deterrence.
One can reasonably infer that an offender who
commits multiple violent felonies may need to be
kept separated from society longer than an offender
who committed only one. Rational incapacitation
thus is served by a sentence structure like Allen’s.
All these justifications distinguish this case from
Graham. And the Eighth Amendment ban on cruel
and unusual punishment flows form the idea that
punishment for crimes should be graduated and
proportioned. Miller v. Alabama, 132 S.Ct. 2455,
2463 (2012). What Allen really asks for is a one size
fits all formula that would arbitrarily treat the less
culpable like the more culpable. That result would go
against the principles of graduated and proportioned
punishment that are at the core of the Eighth
Amendment.
The Circuit Court of Texas County recognized
this when it found that the Missouri Supreme Court
in Willbanks emphasized the consecutive nature of
the sentences and was cautious not to expand
relevant Unties States Supreme Court precedents
beyond the four corners of the opinions. Appendix at
A5-A6. The court also distinguished State ex rel.
Carr, 527 S.W.3d 55 (Mo. 2017) from with case by
noting that the court in Carr imposed the minimum
sentence that he could impose, but here the sentence
found life without the possibility of parole for 50

73a
years was an insufficiently severe punishment, and
the court imposed two consecutive life sentences to
run after the first life sentence. Appendix A6. That
decision fits with a reasonable reading of Willbanks,
as opposed to a cookie cutter approach that would
treat offenders with different levels of culpability as
if they are the same.
IV. The Missouri precedents of Willbanks and
Carr show that Allen’s punishment is
constitutional.
The trial court in Willbanks sentenced the
offender, who was under age 18 at the time of his
offenses, which arose from one continuous course of
conduct, to seven consecutive terms of imprisonment
that totaled life imprisonment plus 355 years.
Willbanks 522 S.W.3d at 240. Willbanks will not
become parole eligible during a normal human life
expectancy. Id. at 241 n. 4.
The Missouri Supreme Court found the aggregate
sentence and parole ineligibility period in Willbanks
to be constitutional. Id. at 241-46. A key part of the
Missouri Supreme Court’s analysis was that
consideration of legitimate goals of penal sanctions
such as retribution, deterrence, and incapacitation
are different where a sentencing court has
affirmatively
chosen
to
impose
consecutive
sentences, as opposed to allowing the default result
of concurrent sentences to occur. Id. at 243. That is a
key distinction from the offender in Carr, who
received concurrent sentences. In Carr, the Missouri
Supreme Court explicitly distinguished Willbanks by
noting that Willbanks involved consecutive sentences
but all three of Carr’s life without parole for fifty-

74a
year sentences ran concurrently. Carr 527 S.W.3d at
61 n. 7.
Allen and an accomplice committed a particularly
brutal home invasion double murder to steal the
money from social security checks of an elderly
couple. State v. Allen, 710 S.W.2d 912, 913-14 (Mo.
App. E.D. 1986). The trial court imposed three
consecutive life sentences for the two murders and
one armed criminal action of which the jury
convicted the offender. Id. at 913. As in Willbanks,
the consideration of penal sanctions here is different
than in a case of a sentence for a single offense or
concurrent sentences. As in Willbanks, here there is
a legitimate penological justification for the sentence
structure that is permissible under the Eighth
Amendment.
A sentencing regime that effectively prohibits
aggregate sentences for juvenile offenders past a
fixed point of parole eligibility would undermine the
State’s critical interest in marginal deterrence
against the commission of multiple crimes by a
single offender. “Nothing in the Constitution forbids
marginal deterrence for extra crimes; if the sentence
for [one crime] were concurrent with the sentence for
[another crime], then there would be neither
deterrence nor punishment for the extra danger
created.” United States v. Buffman, 464 F. App’x 548,
549 (7th Cir. 2012). If a juvenile knows that, once
guilty of a single serious offense, he is guaranteed to
be eligible for release on the same date, no matter
what further crimes he commits, he has no incentive
to curtail his behavior and abstain from other
crimes.

75a
This concern for marginal deterrence is highly
relevant for offenders, like Allen, who commit
multiple serious acts of violence during a single
criminal transaction. If the punishment for that
criminal transaction will be effectively the same, the
offender has no incentive to avoid escalating the
transaction by adding, e.g., a shooting to a
carjacking, or a rape to a home invasion. In other
words, “if the punishment for robbery were the same
as that for murder, then robbers would have an
incentive to murder any witnesses to their
robberies.” Unites States v. Reibel, 688 F.3d 868, 871
(7th Cir. 2012).
V. Because of Willbanks, the cases Allen cites
do not really support his position
Allen argues that his case is controlled by State ex
rel. Carr, 527 S.W.3d 55 (Mo. 2017), which argues
dictates habeas relief here. Petitioner’s Brief at 9-14.
But it does not. The key distinction is that all the
sentences in Carr ran concurrently. In Willbanks,
and here, the sentences all run consecutively. The
analysis of the reasons for punishment, retribution,
specific and general deterrence, and incapacitation
are different where consecutive sentences for
multiple offenses are imposed. In Carr, the judge
imposed the minimum punishment that he could
legally impose. But here, the sentencing court found
life without parole for 50 years was not enough
punishment, and imposed two additional consecutive
life sentences. Willbanks should be read to teach that
Miller and Montgomery do not extend to such a
situation.

76a
Allen cites seven circuit court cases in which a
habeas petitioner received relief as supporting a
grant of relief in his case. Petitioner’s Brief at 10.
But he only argues that one of those cases involved
consecutive sentences. Id. at 16. Those cases do not
bind this Court. And the offender who received relief,
received a windfall. The respondent and the circuit
court got it wrong in that case. That mistake does
not entitle Allen to a windfall. Willbanks controls.
Allen cites two published pre-Willbanks cases
State v. Nathan, 404 S.W.3d 253 (Mo. 2013) and
State v. Olivas, 431 S.W. 3dd 575 (Mo. App. W.D.
2014) for the proposition that consecutive sentences
do not matter in this context when one of the
sentences standing alone would be impermissible.
Petitioner’s Brief at 16-17. Olivas is distinguishable
from the current case in the defendant in Olivas had
only one murder conviction and an armed criminal
action sentence linked to that murder, not two
murder convictions as here. But the key distinction
here is that both those Nathan and Olivas were
decided before Willbanks. Willbanks now controls.
And because of Willbanks this Court should deny the
petition.
CONCLUSION
This Court should deny the petition for habeas
corpus.
Respectfully submitted,
JOSHUA D. HAWLEY
Attorney General

77a

/s/Michael Spillane
MICHAEL SPILLANE
Assistant attorney General
Missouri Bar #40704
P.O. Box 899
Jefferson City, MO 65102
(573) 751-1307
(573) 751-2096 Fax
mike.spillane@ago.mo.gov
Attorney for Respondent
Certificate of Service and Compliance
I hereby certify that a true and correct copy of the
foregoing was electronically filed by using the
Case.Net system. Counsel for petitioner will receive
a copy of the foregoing document through the
Case.Net system this 23th day of October, 2017.
The undersigned also certifies that the foregoing
brief complies with the limitations in Rule 84.06(b)
and that the brief contains 4,749 words.
/s/ Michael Spillane
MICHAEL SPILLANE #40704
Assistant Attorney General

